CERTIFICATE OF SERVICE

No. 21-214

SHANTUBHAI N. SHAH,
Petitioner
v.
MEIER ENTERPRISES, INC.,

Respondent

I, Rebecca A. Watkins, hereby certify that I filed the
foregoing Brief in Opposition to Writ of Certiorari on
this date with the Clerk of the Court for the United
States Court of Appeals for the Ninth Circuit using
the Appellate Electronic Filing system, and by
depositing forty bound and one unbound paper copies
in the US Mail, postage prepaid, on:

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, N.E.

Washington DC 20543

Ml
I further certify that I served three copies of the
foregoing by depositing in the US Mail, postage
prepaid, on

Shantubhai N. Shaw
6637 SW 88 Place
Portland, OR 97223

Date: September 29, 2021

fa b>

Rebecca A. Watkins
Counsel of Record for Respondent
